J

RTIFICATE OF SERVICE
No. TBD
Thomas Nesbitt
Petitioner(s)
v.
Scott Frakes
Respondent(s)

STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Thomas
Nesbitt Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Doug Peterson
Nebraska Attorney General
2115 State Capitol
Lincoln, NE 68509
(402) 471-2683
Counsel for Scott Frakes

Lucas'SeD eus

March 27, 2020
SCP Tracking: Nesbitt-P.O. Box 11099-Cover White

